         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       Contractor Invoice Internal
       Controls Need Improvement
       Report No. 09-P-0242

       September 23, 2009
Report Contributors:                           Janet Kasper
                                               Michael Davis
                                               Melinda Burks
                                               Jennifer Hutkoff
                                               Shannon Schofield




Abbreviations

CMM          Contracts Management Manual
CO           Contracting Officer
COR          Contracting Officer Representative
EPA          U.S. Environmental Protection Agency
FAR          Federal Acquisition Regulation
FMR          Financial Monitoring Review
OAM          Office of Acquisition Management
OAR          Office of Air and Radiation
OARM         Office of Administration and Resources Management
OIG          Office of Inspector General
OMB          Office of Management and Budget
PO           Project Officer
RTP          Research Triangle Park
                       U.S. Environmental Protection Agency                                               09-P-0242
                       Office of Inspector General                                                September 23, 2009




                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review             Contractor Invoice Internal Controls
                                   Need Improvement
We conducted this review to
determine whether U.S.
                                    What We Found
Environmental Protection
Agency (EPA) controls ensure
                                   EPA should improve its invoice review procedures to ensure costs are allowable
that invoiced contractor costs
                                   and supported in accordance with the Federal Acquisition Regulation. During our
are properly supported and
                                   review, we found (1) invoice reviews were not always documented as required by
allowable in accordance with
                                   the Contracts Management Manual (CMM), (2) Project Officer reviews were
the Federal Acquisition
                                   based on incomplete information, (3) monthly progress reports did not always
Regulation.
                                   contain the information needed to evaluate invoices, and (4) Agency staff did not
                                   perform required rate verifications and math checks. Some responsible for invoice
Background
                                   reviews were unaware of the guidance and checklists in the CMM, did not
                                   understand the level of documentation needed to review invoices, or did not
In 2008, EPA paid                  adhere to the guidance.
contractors $1.3 billion. To
safeguard EPA funds, invoices
                                   EPA’s Office of Acquisition Management (OAM) Financial Monitoring Reviews
must be reviewed to determine
                                   (FMRs) have identified repetitive findings related to contractor invoices. The
whether the submitted costs
                                   FMRs continue to find errors in invoices that should have been identified when
are allowable, allocable, and
                                   EPA employees reviewed the invoices prior to approval for payment. EPA did not
reasonable.
                                   develop a corrective action plan to address invoice review internal control
                                   weaknesses identified in FMR findings that were applicable across multiple
                                   contracts. Instead, FMR findings are resolved on a case-by-case basis.

                                   By not using information on trends identified in the FMR process to improve its
                                   policy and procedures, and without adequate controls over the invoice review
                                   process, the Agency is vulnerable to fraud, waste, abuse, and mismanagement of
                                   the funds that it has a fiduciary responsibility to safeguard.

                                    What We Recommend
For further information, contact
our Office of Congressional,       We recommend that the Assistant Administrator for Administration and Resources
Public Affairs and Management      Management require OAM to modify the CMM to require use of the checklist for
at (202) 566-2391.                 invoice reviews, and have Contracting Officers verify compliance with the policy
                                   during invoice reviews. Further, OAM should take corrective actions in response
To view the full report,
click on the following link:       to the trends identified in the FMR reviews. EPA agreed with the findings and
www.epa.gov/oig/reports/2009/      provided corrective action plans for addressing all but one of the recommendations
20090923-09-P-0242.pdf             in the report.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                       September 23, 2009

MEMORANDUM

SUBJECT:               Contractor Invoice Internal Controls Need Improvement
                       Report No. 09-P-0242


FROM:                  Melissa M. Heist
                       Assistant Inspector General for Audit

TO:                    Craig E. Hooks, Assistant Administrator
                       Office of Administration and Resources Management


This is our report on the U.S. Environmental Protection Agency’s (EPA’s) review of contractor
invoices. This report contains findings that describe the problems the EPA Office of Inspector
General (OIG) has identified and corrective actions the OIG recommends. This report represents
the position of the OIG and does not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $363,581.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact Janet Kasper, Director, Contracts and
Assistance Agreement Audits, at 312-886-3059 or kasper.janet@epa.gov.
Contractor Invoice Internal Controls                                                                                        09-P-0242
Need Improvement




                                   Table of Contents

Chapters
   1     Introduction .......................................................................................................      1

                 Purpose ......................................................................................................    1
                 Background ................................................................................................       1
                 Noteworthy Achievements ..........................................................................                2
                 Scope and Methodology .............................................................................               2

   2     Improvements Needed in Invoice Review Process ........................................                                    4

                 Guidance Requires Review of Invoices for Cost Reasonableness .............                                       4
                 Invoice Reviews Not Documented .............................................................                     4
                 PO Reviews Based on Incomplete Information ...........................................                           6
                 Periods of Performance Differed from Monthly Progress Reports .............                                      6
                 Rate and Mathematical Verification Were Not Performed ..........................                                 8
                 Recommendations .....................................................................................            9
                 Agency Comments and OIG Evaluation......................................................                         9

   3     Financial Monitoring Reviews Have Identified Repetitive Findings .............                                           11

                 Guidance Requires Internal Control Monitoring ..........................................                         11
                 Financial Monitoring Reviews Identify Repetitive Contractor Invoice
                      Findings ............................................................................................       12
                 EPA Needs Action Plan in Response to FMR Trends ................................                                 13
                 Recommendations .....................................................................................            14
                 Agency Comments and OIG Evaluation......................................................                         14

   Status of Recommendations and Potential Monetary Benefits .............................                                        15



Appendices
   A     OIG Sample of Contracts and Invoices ............................................................                        16

   B     Invoice Findings and Contract Numbers .........................................................                          17

   C     Agency Response to Draft Report....................................................................                      18

   D     Distribution .........................................................................................................   21
                                                                                     09-P-0242




                                 Chapter 1
                                 Introduction

Purpose
          To safeguard U.S. Environmental Protection Agency (EPA) funds paid to
          contractors, EPA employees must review invoices to determine whether the
          submitted costs are allowable, allocable, and reasonable. Due to the importance
          of invoice review, we conducted this audit to determine whether EPA controls
          ensure that invoiced costs are properly supported and allowable in accordance
          with the Federal Acquisition Regulation (FAR).

Background
          During Fiscal Year 2008, EPA spent $1.3 billion to procure goods and services
          from contractors. As defined in FAR Part 31.2, a cost is allowable only when it is
          (1) reasonable, (2) allocable, and (3) complies with standards promulgated by the
          United States Office of Management and Budget’s (OMB’s) Cost Accounting
          Standards Board or generally accepted accounting principles and practices
          appropriate to the circumstances, terms of the contract, and any limitations set
          forth in the FAR. A cost is reasonable if, in its nature and amount, it does not
          exceed that which would be incurred by a prudent person in the conduct of
          competitive business. A cost is allocable if it is assignable or chargeable to one or
          more cost objectives on the basis of relative benefits received or other equitable
          relationship.

          Contracting Officers (COs) are responsible for administering contracts. The FAR
          specifies that the CO is responsible for ensuring performance of all necessary
          actions for effective contracting and for safeguarding the interest of the United
          States in its contractual relationships. In undertaking this effort, COs rely on the
          contributions of numerous financial, legal, and technical experts. Due to the size
          and complexity of Agency acquisitions, COs frequently appoint Contracting
          Officer Representatives (CORs) to perform certain contract administration
          activities.

          Over the years, EPA has developed a wide range of unique titles for employees
          who perform COR duties, such as project officer, work assignment manager,
          delivery order project officer, task order project officer, and task monitor. Titles
          and roles are based on the acquisition instrument managed – contract, work
          assignment, task order, or delivery order. For purposes of this report, Project
          Officer (PO) refers to all invoice approvers. We use the term COR to refer to
          those who focus on the technical, day-to-day aspects of contract management on
          behalf of the CO and who also work closely with POs when approving invoices.



                                             1
                                                                                  09-P-0242


         According to EPA’s Contracts Management Manual (CMM), the CO is
         responsible for performing periodic reviews of invoices to ensure that the
         contractor, PO, and CORs are properly fulfilling their roles, and that all issues
         relevant to contract performance are being addressed. The CMM also requires the
         CO to perform at least one detailed review of an invoice on each contract each
         year.

Noteworthy Achievements
         EPA’s Office of Air Quality Planning and Standards has been responsive to the
         audit team’s comments regarding invoice reviews. During our field work, we
         expressed our concern about instances where POs did not ensure CORs certified
         the actual invoice, but rather allowed them to complete checklists based upon
         monthly progress reports. Immediately, the Office of Air Quality Planning and
         Standards Team Leader issued guidance to POs to ensure invoices and progress
         report were in agreement, correct, and accurate. The guidance clarified the
         process for certifying and approving contractor invoices for payment.
         Additionally, two COs called a meeting with all their POs and highly
         recommended they start using the checklist to complete their invoice reviews.

Scope and Methodology
         We conducted this performance audit in accordance with generally accepted
         government auditing standards issued by the Comptroller General of the United
         States. These standards required that we plan and perform the audit to obtain
         sufficient, appropriate evidence to provide a reasonable basis for our findings and
         conclusions based on our audit objective. We believe that the evidence obtained
         provides a reasonable basis for our findings and conclusions based on our audit
         objective.

         We conducted the audit from September 2008 to August 2009. We also used
         information collected as part of a separate review of the invoice process the OIG
         conducted in 2007.

         We obtained an understanding of the contract invoice review process through
         analysis of the laws, regulations, and guidance, and an evaluation of internal
         controls over the process. We reviewed the FAR, the EPA Acquisition
         Regulation, and the CMM to understand regulations and directives governing
         contract invoice review. We reviewed OMB Circular A-123 and EPA Order
         1000.24 to understand management’s responsibility for internal controls. Our
         analysis of internal controls focused on control activities. We examined the
         policies and procedures that management established to address the risks
         associated with the invoicing process.

         We visited the Office of Air and Radiation (OAR) and the Office of Acquisition
         Management (OAM), both in Washington, DC, and in Research Triangle Park


                                           2
                                                                            09-P-0242


(RTP), North Carolina. We also visited EPA Region 9 in San Francisco,
California, and RTP’s Financial Management Center. We interviewed COs, POs,
CORs, managers in the payment office, and others to determine the process for
paying invoices. We reviewed contract clauses, invoices, monthly progress
reports and various backup documentation for invoices to determine whether costs
were supported and allowable.

We obtained a universe of 368 EPA time and material, cost-reimbursable and
level-of-effort contracts with a current contract value of almost $8.2 billion from
the July 2008 active contract listing. We focused on cost-reimbursable contracts,
as opposed to fixed-price contracts, as cost-reimbursable contracts pose a greater
risk to the government. Unlike fixed-price contracts, cost-reimbursable contracts
charge the government for expenses incurred and do not place full fiscal
responsibility and the resulting profit or loss with the contractor. The team
judgmentally selected a sample of 10 EPA contracts. We chose five contracts
each from EPA Region 9 and OAR to capture a nonstatistical sample from both a
national headquarters program office and a region. OAR and Region 9 offices
were selected based on the Fiscal Year 2007 OAM accomplishments reports that
showed that these offices accounted for a sizeable share of the contract dollars in
EPA. The two offices represented 19 percent of the universe of time and material,
cost-reimbursable, and level-of-effort contracts.

Once the contracts were selected, we selected two of the more recent invoices for
each contract. The dollar amount of the invoice was a consideration but not a
determining factor. We also selected invoices not related to the same work
assignment, task order, or line of accounting so that we would be speaking with
different POs and CORs. The 10 OAR invoices selected for review had a total
invoice amount of $196,285 (.002 percent of the universe). The 10 invoices
selected for Region 9 totaled $3,567,966, of which we reviewed $964,614 (.01
percent of the universe). Since it was a nonstatistical sample, the error rate in the
sample cannot be projected to the universe. See Appendix A for more details on
the sample of contracts and invoices we reviewed.

We reviewed the June 2004 OAM Intranet document titled Lessons Learned
From the FMR Program, to obtain an understanding of findings identified by
Financial Monitoring Reviews (FMRs) performed for 2004 and prior years. We
reviewed more recent FMRs for 2005 and subsequent years to determine if these
findings have continued.

We are not aware of any recent prior report recommendations specifically related
to this report’s audit objective.




                                   3
                                                                                     09-P-0242




                                Chapter 2
   Improvements Needed in Invoice Review Process
          EPA should improve its invoice review procedures to ensure costs are allowable
          and supported in accordance with the FAR. We found that:

             •   invoice reviews were not documented,
             •   PO reviews were based on incomplete information,
             •   monthly progress reports did not always contain the information needed to
                 evaluate invoices, and
             •   Agency staff did not perform required rate verifications and math checks.

          Some responsible for reviews were unaware of the guidance and checklists in the
          CMM, did not understand the level of documentation needed to review invoices,
          or did not adhere to the guidance. Without adequate controls over the invoice
          review process, the Agency becomes vulnerable to fraud, waste, abuse, and
          mismanagement.

Guidance Requires Review of Invoices for Cost Reasonableness
          According to CMM Section 11.2.5, it is the policy of the government to review
          contract invoices thoroughly for cost reasonableness. The FAR states that no
          presumption of reasonableness shall be attached to the incurrence of costs by a
          contractor. The CMM invoice review checklists for POs and CORs illustrate the
          important items they are to verify prior to invoice approval. The following are
          some of the questions listed on the invoice review checklists.

             •   Does the invoice period of performance cover the progress report period
                 of performance?
             •   Are the labor categories and hours billed appropriate for the work
                 required?
             •   Are indirect rates and costs billed at the authorized rates for that period of
                 performance?
             •   Are other direct costs reasonable and within the contract approved dollar
                 ceiling?
             •   Is the math accurate?

Invoice Reviews Not Documented
          POs did not always document their review and approval of contractor invoices.
          This occurred because POs did not understand the level of documentation needed
          to sufficiently document invoice reviews. Appropriate documentation is necessary



                                            4
                                                                           09-P-0242


to demonstrate that EPA is implementing its responsibility for invoice review.
Without documentation, EPA does not have assurance that the costs were
evaluated as to whether they are allowable and reasonable.

Although the CMM provides checklists for POs and CORs to use in reviewing
invoices, the use of the checklists is not mandatory. In the absence of checklists,
the CMM requires that the EPA staff reviewing the invoice provide
documentation to show that the appropriate review was performed.

We found 12 of 20 invoices (60 percent) were not supported by evidence of
review, either with a checklist or other documentation. For example:

   •   An OAR contractor submitted an invoice for over $29,000 that was paid
       without any evidence of review. The COR stated that he has the checklist,
       but he does not use it every time. He explained that it would be helpful to
       have some kind of training on what he should do and what should go in
       the file. The COR stated that more guidance on what forms to use and
       what records should be kept would be beneficial.

   •   An invoice for over $413,000 submitted to Region 9 was approved and
       paid without a checklist or any other evidence of tick marks or other
       means of showing that it had been reviewed. The PO explained that she
       spot-checks the cost among the invoice categories and did not document
       her review.

Three factors contributed to the lack of documentation for invoice reviews. First,
EPA staff that review invoices believed that they were insufficiently trained in
reviewing invoices and documenting those reviews. However, EPA’s required
training for CORs includes a chapter on the invoice review process, which
emphasizes the importance of the function and states that the COR must maintain
a file of all invoices, invoice review checklists, and all other documentation
associated with the invoice. The training materials include a copy of the invoice
review checklist from the CMM.

A second reason for the lack of documentation to support the invoice review is
that EPA does not require POs to use the checklist in the CMM. According to
OAM’s Acting Director of Policy, Training and Oversight, the checklist is not
mandatory because it is provided as general guidance on how to perform invoice
reviews and as a tool to assist those who review invoices.

Finally, COs were not ensuring that invoice reviews were appropriately
documented. According to the CMM, the CO is responsible for performing
periodic reviews, as needed, to ensure that the POs and CORs are fulfilling their
roles properly in regard to invoice review. Several COs told us that they do not
check on how the POs and CORs are documenting their invoice reviews.




                                  5
                                                                                     09-P-0242


PO Reviews Based on Incomplete Information
          For 6 of 20 invoices (30 percent), PO invoice approvals were based on incomplete
          information. One PO approved two invoices based on invoice review checklists
          that CORs completed; these checklists were based upon cost information from the
          monthly progress report rather than the invoice. The PO did not provide the
          CORs with copies of the invoices to perform their reviews. For the remaining
          four invoices, the supporting documentation did not contain the detail needed to
          evaluate the allowability and reasonableness of invoiced costs. Without complete
          information, costs may be approved without EPA review to assess their
          allowability and reasonableness.

          The monthly progress report is an important tool in reviewing the invoice. The
          report identifies the project’s progress, difficulties encountered, and anticipated
          future activity. However, without reviewing the invoice, the COR cannot
          accurately assure that costs claimed, as identified on the invoice, are reasonable
          and commensurate with work performed. For one of the invoices the PO approved
          using COR-completed invoice review checklists, we found that the cost summary
          information in the monthly progress report was not reliable. For example, the
          hours for Professional Level III Engineer reported on the monthly progress report
          were fewer than those reported on the invoice. The COR identified no exceptions
          and recommended payment of the invoice based on the monthly progress report
          alone. The PO approved the invoice for payment. The PO checklist noted,
          “Direct charges appear to be reasonable, accurate and commensurate with the
          level of effort performed during this time period.” However, the PO’s certification
          was based on the COR’s review of information in monthly progress report and not
          the invoice.

          The contract terms require invoices to contain a description of the cost charges or
          detailed explanations for the cost categories when the costs exceeded set dollar
          amounts. We identified four invoices with other direct costs totaling $39,065 that
          POs approved for payment without a description of the costs as required in the
          contracts. For two of the invoices, the costs exceeded the amount specified in the
          contract for required detailed reporting. The PO approved the invoice in full
          without the required detailed support for other direct costs. Without detailed
          information for these costs, the PO cannot determine whether costs incurred and
          paid by the government are allowable and reasonable for work performed.

Periods of Performance Differed from Monthly Progress Reports
          Four of 20 invoices (20 percent) had periods of performance that differed from
          the monthly progress report cost summaries. Each of the contracts required that
          the period covered by the progress reports and invoices be the same. The POs
          were aware of the different periods of performance, but not all had taken action to
          correct the issue. With different periods of performance, it’s difficult to match the
          costs reported in the monthly progress report to costs invoiced.


                                            6
                                                                         09-P-0242


EPA Acquisition Regulation Section 1552.232-70 paragraph e.1, which is cited in
contract terms and conditions, states, “when submitted on a monthly basis, the
period covered by invoices or requests for contractor financing payments shall be
the same as the period for monthly progress reports required under this contract.”
According to the CMM, Chapter 11.2.5, Agency personnel are responsible for
reviewing the monthly progress report’s consistency with invoices and for
verifying compliance of both invoices and monthly progress reports with contract
requirements. This is reflected in item number 2 of the PO and COR checklists,
which questions whether the invoice period of performance cover the progress
report period of performance. The CMM states that the CO is to conduct periodic
oversight to confirm compliance with invoices and monthly report clauses in the
contract.

Two of the four invoices with periods of performance that differed from the
progress report included:

   •   For the Region 9 emergency response contract, the invoice period is based
       on when relevant documentation is ready, and the progress report is issued
       monthly. When we asked the PO how she knows that the invoiced billing
       information is correct, the PO stated that it is correct “because it is done
       out of the contractor’s accounting system.” However, just because the
       information came from the contractor’s accounting system does not ensure
       that it is accurate or allowable. A financial monitoring review of this
       contractor, performed in July 2008, determined that the contractor was not
       complying with cost accounting standards. The PO stated she was not
       aware of the results of the FMR.

   •   For an air contract, one invoice was for a single day’s worth of subcontract
       charges, although the subcontractor invoice indicated the period of
       performance was 3 days. The corresponding progress report covered 14
       days’ worth of work. The PO explained that this contractor uses different
       periods of performance on its progress reports and invoices. For example,
       another invoice that was not in our sample covered four separate monthly
       progress reports. The PO said she depends on the CORs to tell her
       whether the contractor did the work. If there are no problems, the PO will
       approve the invoice.

The POs were taking varying levels of action to enforce the terms of contract.
One of the POs was working with the contractor to get the period of performance
to be the same in the monthly progress reports and invoices. Another PO’s team
leader said he would take action to address the issue after we brought it to his
attention during the audit. The PO responsible for reviewing two of the sample
invoices did not consider the differences in period of performance as a problem
and did not take action. Invoices that are approved based upon supporting cost
documentation that covers a different period of performance presents a significant




                                 7
                                                                                      09-P-0242


          control weakness in the invoice approval process. It also illustrates a lack of
          enforcement of contract terms.

Rate and Mathematical Verification Were Not Performed
          Agency staff did not perform their required rate verifications and math checks.
          We found that RTP’s Finance Center did not perform these activities, and POs
          and CORs performed these activities for only 20 percent (4 of 20) of the invoices.
          Without performing consistent rate verifications and math checks on invoices,
          there is increased risk that overbillings could occur and not be detected prior to
          invoice approval and payment.

          Even though Agency guidance identifies the RTP Finance Center as having
          primary responsibility for verifying rates and mathematical accuracy of invoices,
          it is not performing this function. A payment section team leader explained that
          the RTP Finance Center does not perform the verification because they believe
          the task is more suitable to CORs.

          Section 11.2.5.1 of the CMM delegates primary responsibility for rate verification
          and mathematical accuracy on the invoice to RTP’s Finance Center. In particular,
          the Finance Center is responsible for confirming that the rates billed for indirect
          costs, as well as for fixed or provisional rates for labor and equipment, are billed
          consistently with the contract rates. The Finance Center is also required to
          confirm that total current and cumulative costs are correctly summed, and that
          rates are correctly multiplied to produce dollars billed for direct and indirect costs
          (on a sample basis).

          According to the CMM, the PO and COR are secondarily responsible for
          verifying rates and mathematical accuracy of the invoice, but performed this
          function on only 20 percent (4 of 20) of the invoices we reviewed. In one case
          where the rates were not verified, we identified an overpayment to the contractor
          of $368. This overpayment resulted from a fixed fee that was calculated using an
          incorrect base. According to the terms of the contract, the rate for fixed fee was
          to be applied to professional labor hours. However, the base on the invoice
          calculation was for professional and nonprofessional labor hours. The PO
          confirmed that the same problem occurred on additional invoices, which resulted
          in a total overbilling of $560. This error would have been identified if either the
          RTP Finance Center or COR had verified the mathematical accuracy of the fixed
          fee calculation.

          While the CMM designates RTP Finance Center as having primary responsibility
          for rate and math verification, our observation is that the PO and COR are in a
          better position to conduct this review. The PO and COR maintain files that
          include the invoices and contract documents that would be needed to verify that
          the contractor is billing the correct rates. The PO, when approving the invoice, is
          expressing an opinion as to whether EPA should approve the invoice, which



                                             8
                                                                                     09-P-0242


         would require verification of the rates and mathematical accuracy of the invoice.
         OAM should reassign the responsibility for rate and math verifications to the POs
         and CORs.

         Although in our sample of 20 invoices the amount overpaid was minimal, it
         illustrates the importance of checking math and verifying rates. Given that RTP
         pays out more than $1 billion annually in contract payments, this dollar value
         could escalate considerably if controls are not in place to prevent overpayment.
         When the rate verification and math checks are not performed, the Agency is
         susceptible to paying costs that are unallowable or unsupported. See Appendix B
         for more details on invoice findings.

Recommendations
         We recommend that the Assistant Administrator for the Office of Administration
         and Resources Management:

         2-1      Modify the CMM to require use of the checklist for invoice reviews the
                  CORs perform, and to ensure CORs receive invoices and supporting
                  documentation to assist their reviews.

         2-2      Where the progress report and invoice did not cover the same time period,
                  require the contractors identified during this review to revise their progress
                  reports to match the time period of the invoice.

         2-3      Re-evaluate the assignment of the responsibility for math and rate
                  verifications on contractor invoices and update the CMM accordingly.

         2-4      Require that the COs, as part of the annual invoice review, perform
                  periodic reviews to make certain that the POs and CORs are:

                  a. Implementing changes to the CMM made in response to the audit
                     report.
                  b. Requiring contractors to submit invoices and progress reports with
                     matching periods of performance.

Agency Comments and OIG Evaluation
         In responding to the draft report, EPA agreed to take action to address all of the
         recommendations, and provided milestone dates for most of the
         recommendations.

         •     Recommendation 2-1. OAM agreed that the CMM should be modified to
               better define documentation needs at two levels: first, the supporting
               documentation that needs to be supplied by the contractor to assist the COR in
               invoice reviews; and second, the documentation that the COR needs to


                                             9
                                                                         09-P-0242


    prepare to prove that a sufficient invoice review has been performed. OAM
    will encourage the use of the checklist, and will define the specific
    documentation that is needed when the checklist is not used. An interim
    policy notice will be issued by December 31, 2009. The CMM will also be
    revised, but that may take an additional 6 months.

•   Recommendation 2-2. EPA contracting officers will send a letter to
    contractors reminding them of the requirement that progress reports and
    invoices cover the same time period. The letter will be issued by
    December 31, 2009.

•   Recommendation 2-3. OAM agreed that math and rate verifications are
    important and that they would discuss the issue of who is responsible for the
    function with the Office of the Chief Financial Officer in greater depth by
    November 30, 2009. Based on that discussion, OAM will provide an action
    plan for addressing the recommendation. In responding to the final report,
    EPA needs to provide an action plan, with milestone dates, to address
    Recommendation 2-3.

•   Recommendation 2-4. OAM agreed that contracting officer reviews will be
    used to verify compliance with the report recommendations. The quality
    assessment plan policy in the EPA’s acquisition handbook will be updated by
    December 31, 2009.

The Agency’s full response is provided in Appendix C.




                                  10
                                                                                      09-P-0242




                                 Chapter 3
     Financial Monitoring Reviews Have Identified
                 Repetitive Findings

          OAM FMRs have identified repetitive findings related to contractor invoices.
          The FMRs continue to find errors in invoices, some of which the PO and CORs
          should have identified when reviewing the invoice. EPA did not develop a
          corrective action plan to address invoice review internal control weaknesses
          identified in FMR findings that were applicable across multiple contracts.
          Instead, FMR findings are resolved solely on a case-by-case basis for a specific
          contract. To maximize the usefulness of FMRs as an internal control tool, the
          Agency should identify trends in FMR findings and recommendations. The
          Agency can use this information to review and improve its invoice review process
          and other areas. Doing so will help reduce the Agency’s vulnerability to fraud,
          waste, abuse, and mismanagement.

Guidance Requires Internal Control Monitoring
          OMB Circular A-123, Management’s Responsibility for Internal Control, states
          that once internal control activities are put into place, continuous monitoring and
          testing should help to identify poorly designed or ineffective controls. Findings in
          audit and internal management reviews are one source of information about the
          effectiveness of internal controls. In addition, a systematic process should be in
          place for addressing deficiencies. EPA Order 1000.24, which implements OMB
          Circular A-123, states that all methods of internal controls serve as the first line of
          defense against fraud, waste, abuse, and mismanagement.

          EPA’s Cost Advisory personnel (i.e., the Financial Analysis Service Center at
          Headquarters and for the Regions, or the Cost Analysis staffs at RTP and
          Cincinnati, Ohio) perform FMRs on selected contracts. EPA schedules FMRs on
          active contracts in excess of $5 million. The CO and Financial Administrative
          Contracting Officer are responsible for resolving cost and financial issues raised
          during these reviews. The FMRs target current contractor invoices to determine
          whether there is adequate contractor data in the accounting records and systems to
          support the contractor’s billings, and to identify potential internal control issues
          that might not otherwise be found until an audit is performed years later.




                                             11
                                                                                   09-P-0242


Financial Monitoring Reviews Identify Repetitive Contractor Invoice
Findings
          OAM FMRs have identified repetitive findings related to contractor invoices,
          meaning similar issues were identified during FMR reviews at different
          contractors. The OAM Intranet document titled Lessons Learned From the FMR
          Program (June 2004) identified issues that were noted during FMR reviews,
          including:

               •   overbilling of indirect costs
               •   costs exceeding contract ceilings
               •   inadequate support for contract billings
               •   ineffective internal controls
               •   inadequate policies and procedures
               •   noncompliance with contractual and/or regulatory requirements
               •   billing costs that are either unallowable, unallocable, or unreasonable
               •   missing mandatory contract clauses
               •   incorrect billing of fees

          We found weaknesses and invoice errors during our review of 20 sample
          contractor invoices similar to the findings identified in the FMRs. For example:

               •   For 4 of 20 invoices, the monthly progress report dates differed from the
                   invoice dates, contrary to the requirements stipulated in the contract
                   terms.
               •   For 4 of 20 invoices, there was inadequate support for other direct costs.
               •   For 1 of 20 invoices, the fee was calculated incorrectly, resulting in an
                   overbilling of the fixed fee.

          Because OAM’s list of findings was several years old, we reviewed more recent
          FMRs to determine if the issues continued. According to more recent FMRs we
          obtained for 2005 and subsequent years, these FMR findings have continued.
          Overall, there were a total of 51 findings identified in the more recent FMRs and
          our invoice reviews combined. Of the 17 FMR findings from the OAM Intranet
          document, the more recent FMRs and invoice reviews identified 12 of these
          findings as continuing, with the most prevalent findings being (1) noncompliance
          with contractual and/or regulatory requirements, and (2) inadequate support for
          contract billings. Table 3-1, on page 13, illustrates the trends identified by the
          FMR findings and this audit.

          The FMRs continue to find errors in invoices that should have been identified
          when EPA employees reviewed the invoices prior to approval for payment. For
          example, overbillings of costs and incorrect fixed fee calculations should be
          identified during invoice review. Improved internal controls over the invoice
          review process, such as requiring the use of the invoice review checklist and



                                           12
                                                                                               09-P-0242


            ensuring math checks and rate verifications are performed, would help ensure
            such errors are detected prior to invoice approval for payment.

    Table 3-1: Trends Identified by Repetitive FMR Findings and OIG Review
                                    More Recent FMR OIG Review of         Total Findings
                                     Findings (2005     20 Sample       Identified by More
      FMR Repetitive Findings       and Subsequent      Contractor    Recent FMRs and OIG
       (2004 and Prior Years)            Years)          Invoices       Review of Invoices
     Overbilling of direct or              3                1                    4
     indirect costs
     Gross underfunding of                 1                0                    1
     indirect costs
     Cost overruns/exceeding               1                1                    2
     contract ceilings
     Inadequate support for                5                8                    13
     contract billings
     Noncompliance with                    8                6                    14
     contractual and/or
     regulatory requirements
     Pre-billing of subcontractor          1                0                    1
     cost
     Billing costs that are either         2                0                    2
     unallowable, unallocable, or
     unreasonable
     Inadequate invoices                   3                0                    3
     Missing mandatory contract            2                1                    3
     clauses
     Incorrect billing of fee              1                1                    2
     Incorrect level of effort             2                0                    2
     computations
     Actual rates/cost                     4                0                    4
     significantly higher than the
     contractor’s best and final
     offer
                             Totals        33               18                   51
    Source: OIG Analysis of Recent FMR Findings and Results of OIG Review of Sample Invoices


EPA Needs Action Plan in Response to FMR Trends
            EPA has not used the FMR findings to identify changes that are needed in Agency
            policy and procedures. Consequently, EPA did not develop a corrective action
            plan to address invoice review internal control weaknesses identified in FMR
            findings that were applicable across multiple contracts. Instead, FMR findings
            are resolved on a case-by-case basis for the specific contract reviewed.

            FMRs are useful tools that serve as a valuable internal control to identify trends
            that should be addressed. EPA is not using the FMRs as a tool to identify where
            improvements may be needed in EPA processes. In accordance with OMB
            Circular A-123, EPA should take corrective actions in response to the trends
            identified in the FMR findings. These changes may decrease the number of



                                                  13
                                                                                   09-P-0242


         repetitive findings and invoice errors identified by the FMRs for contractor
         billings and reduce vulnerability of contract funds to fraud, waste, abuse, and
         mismanagement.

Recommendations
         We recommend that the Assistant Administrator for the Office of Administration
         and Resources Management:

         3-1    Analyze FMRs to identify findings that are recurring on multiple
                contracts.

         3-2    Develop a corrective action for addressing the common findings identified
                in FMRs.

Agency Comments and OIG Evaluation

         In responding to the draft report, EPA agreed with the recommendations and
         provided milestone dates for completing corrective actions. EPA agreed to
         conduct an analysis of the results of financial monitoring reviews by
         November 30, 2009, and to develop a corrective action plan for addressing
         common findings by December 31, 2009. The Agency’s full response is provided
         in Appendix C.




                                           14
                                                                                                                                              09-P-0242



                                        Status of Recommendations and
                                          Potential Monetary Benefits

                                                                                                                                    POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                                 BENEFITS (in $000s)

                                                                                                                        Planned
    Rec.    Page                                                                                                       Completion   Claimed    Agreed To
    No.      No.                          Subject                            Status1         Action Official              Date      Amount      Amount

    2-1       9     Modify the CMM to require use of the checklist for         O         Assistant Administrator for   6/30/2010
                    invoice reviews the CORs perform, and to ensure                     the Office of Administration
                    CORs receive invoices and supporting                               and Resources Management
                    documentation to assist their reviews.

    2-2       9     Where the progress report and invoice did not              O         Assistant Administrator for 12/31/2009
                    cover the same time period, require the contractors                 the Office of Administration
                    identified during this review to revise their progress             and Resources Management
                    reports to match the time period of the invoice.

    2-3       9     Re-evaluate the assignment of the responsibility for       U         Assistant Administrator for 11/30/2009
                    math and rate verifications on contractor invoices                  the Office of Administration
                    and update the CMM accordingly.                                    and Resources Management

    2-4       9     Require that the COs, as part of the annual invoice        O         Assistant Administrator for 12/31/2009
                    review, make certain that the POs and CORs are:                     the Office of Administration
                       a. Implementing changes to the CMM made in                      and Resources Management
                          response to the audit report.
                       b. Requiring contractors to submit invoices and
                          progress reports with matching periods of
                          performance.
    3-1       14    Analyze FMRs to identify findings that are recurring       O         Assistant Administrator for 11/30/2009
                    on multiple contracts.                                              the Office of Administration
                                                                                       and Resources Management

    3-2       14    Develop a corrective action for addressing the             O         Assistant Administrator for 12/31/2009
                    common findings identified in FMRs.                                 the Office of Administration
                                                                                       and Resources Management




1    O = recommendation is closed with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                       15
                                                                                       09-P-0242


                                                                               Appendix A

               OIG Sample of Contracts and Invoices

Table A-1: Sample of 10 Contracts and 20 Invoices
                                       Invoice Period of    Total Invoice     OIG Reviewed
Contract Number     Invoice Number       Performance          Amount             Amount

Office of Air and
Radiation (OAR)
Contracts
EP-W-07-072                11005        6/1/08 – 6/30/08      $    6,397.00        $     6,397.00
                           11006        6/1/08 – 6/30/08          29,396.76             29,396.76
EP-D-06-011                 8626       12/1/07 – 12/14/07         20,948.18             20,948.18
                            8634            12/14/07               2,234.67              2,234.67
EP-W-06-008                  25         1/1/08 – 1/27/08          13,552.29             13,552.29
                             2          5/26/08 – 6/30/08         23,695.48             23,695.48
EP-D-07-102              5-35468-8      5/1/08 – 5/31/08          39,713.89             39,713.89
                         5-35468-9      6/1/08 – 6/30/08          43,885.54             43,885.54
EP-W-06-016              BVN0005             6/22/08               6,779.15              6,779.15
                         BVN0006             8/24/08               9,682.72              9,682.72

      OAR Totals                                               $ 196,285.68        $ 196,285.68

Region 9
Contracts
68-W-98-225                 269        5/31/08 – 6/27/08     $ 1,354,174.04        $     7,167.13
                            271        6/28/08 – 7/25/08       1,055,408.54              1,864.18
EP-W-06-006                A026        2/25/08 – 3/30/08         122,455.00             55,988.89
                           A030        6/30/08 – 7/27/08         164,847.68             28,513.48
EP-W-07-022             262-001-005    2/26/08 – 7/18/08          74,995.72             74,995.72
                        262-015-002    6/3/08 – 8/17/08          413,350.43            413,350.43
EP-R9-08-01                  2         7/26/08 – 8/29/08         171,964.36            171,964.36
                             1         7/15/08 – 7/25/08           2,909.44              2,909.44
EP-R9-07-02                 10              7/9/08                92,324.58             92,324.58
                             11        7/1/08 – 7/31/08          115,536.76            115,536.76

  Region 9 Totals                                            $ 3,567,966.55    $       964,614.97

     Grand Totals                                            $ 3,764,252.23    $ 1,160,900.70
Source: Financial Data Warehouse




                                                16
                                                                                                     09-P-0242


                                                                                              Appendix B

               Invoice Findings and Contract Numbers

Table B-1: Invoice Review Findings and Related Contract Numbers
                                                                               Monthly
                                                                              Progress
                                                                             Reports Do
                                                                             Not Always
                                                                               Contain       Rate and
                                                            PO Review        Information   Mathematical
                                           Invoice           Based on         Needed to     Verification
   Contract              Invoice         Reviews Not       Incomplete          Evaluate      Were Not
   Number               Number           Documented        Information         Invoices     Performed
EP-W-07-072          11005                    X                                                   X
                     11006                    X                                                   X
EP-D-06-011          8626                                        X                                X
                     8634                                        X                   X            X
EP-W-06-008          25                                                                           X
                     2                                                                            X
EP-D-07-102          5-35468-8                                                                    X
                     5-35468-9                                                                    X
EP-W-06-016          BVN0005                   X                 X                                X
                     BVN0006                                     X                                X
68-W-98-225          269                       X                                                  X
                     271                       X                                                  X
EP-W-06-006          A026                                                                         X
                     A030                      X                                                  X
EP-W-07-022          262-001-005               X                                     X
                     262-015-002               X                                     X
EP-R9-08-01          2                         X
                     1                         X                                     X
EP-R9-07-02          10                        X                 X                              X
                     11                        X                 X                              X
           Totals                              12                6                   4          16
Source: OIG review of 10 sample contracts, and 2 recent invoices for each contract




                                                         17
                                                                                              09-P-0242




                                                                                          Appendix C


                    Agency Response to Draft Report


                                         September 16, 2009

MEMORANDUM

SUBJECT:        Response to Draft Audit Report: Contractor Invoice Internal Controls
                Improvement, Project OA-FY08-0373

FROM:           Craig E. Hooks
                Assistant Administrator

TO:             Janet Kasper
                Director, Contracts and Assistance Agreements
                Office of the Inspector General

        We appreciate the opportunity to comment on the report entitled “Contractor Invoice
Internal Controls Need Improvement,” dated August 10, 2009. Our comments on the report and
recommendations are below:

Recommendation 2-1 - We recommend that the Assistant Administrator (AA) for the
Office of Administration and Resources Management (OARM) modify the Contract
Management Manual (CMM) to require the use of the checklist for invoice reviews the
contracting officer representatives (CORs) perform, and for CORs to receive invoices and
supporting documentation to assist their reviews.

Response - We agree that the CMM needs to be modified to better define documentation needs
at two levels: first, the supporting documentation that needs to be supplied by the contractor to
assist the COR in invoice reviews; and secondly, the documentation that the COR needs to
prepare to prove that a sufficient invoice review has been performed. We will encourage CORs
to use the checklist if it is applicable to their specific contract. However, that particular list is not
suitable for all contracts or all invoices. For cases where it does not apply, we will define the
specific documentation that the COR needs to prepare to properly document that an invoice
review has been performed. We propose to develop the new documentation definitions by
December 31, 2009, which we will promulgate via an Interim Policy Notice. (Formal CMM
revisions generally take about 6 months to complete.)




                                                    18
                                                                                        09-P-0242




Recommendation 2-2 - We recommend that the AA for OARM require contractors, where
the progress report and invoice do not cover the same time period, to revise their progress
reports to match the time period of the invoice.

Response - We concur with this recommendation. EPA’s contracting officers (COs) will notify
their contractors of this requirement, via a written letter, by December 31, 2009. In cases where
the contracts do not contain the requirement that progress report and invoice periods match, the
contracts will be modified.

Recommendation 2-3 - We recommend that the AA for OARM reassign the responsibility
for math and rate verification on contractor invoices to project officers (POs) and CORs,
and update the CMM accordingly.

Response - While we agree that math and rate verifications on invoices are an important internal
control that should be required, we believe that assigning responsibility for these reviews needs
to be further discussed. In some case, the PO or COR is the most logical candidate to perform
such checks; in other cases, OCFO-RTP may be in a better position to do so. We suggest that
you modify your recommendation and remove the identification of a specific party as being
responsible in all cases. We need to discuss this issue with OCFO in greater depth, and will do
so by November 30, 2009. Once this discussion has been held, we will respond to this
recommendation accordingly.

Recommendation 2-4 - We recommend that AA for OARM require that the COs perform
periodic reviews to make certain that POs and CORs are: (a) implementing changes to the
CMM made in response to the audit report; and (b) requiring contractors to submit
invoices and progress reports with matching periods of performance.

Response - We agree with these recommendations. These reviews will be carried out in each
COs annual review of invoices as required by their Division’s or Region’s Quality Assessment
Plan (QAP). The QAP policy will be modified accordingly in EPA’s Acquisition Handbook, by
December 31, 2009.

Recommendation 3-1 - We recommend that the AA for OARM analyze financial
monitoring reviews to identify findings that are recurring on multiple contracts.

Response - We agree with this recommendation. The analysis will be completed by November
30, 2009.

Recommendation 3-2 - We recommend that the AA for OARM develop a corrective action
for addressing the common findings identified in financial monitoring reviews.

Response - We concur with this recommendation. The corrective action plan will be developed
by December 31, 2009.




                                                 19
                                                                                      09-P-0242


       Should you have any questions regarding this response, please contact John Oliver in the
Office of Acquisition Management, at (202) 564-4399.


cc:    John Gherardini
       Cris Thompson
       Joan Wooley
       John Oliver
       Yvonne Stiso
       Elena de Leon
       Bernie Davis-Ray
       Sandy Womack-Butler
       Brandon McDowell




                                                20
                                                                                 09-P-0242


                                                                             Appendix D

                                   Distribution

Office of the Administrator
Assistant Administrator for Administration and Resources Management
Acting Chief Financial Officer
Acting Director, Office of Acquisition Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Acting Director, Office of Financial Management
Acting Director, Office of Financial Services
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Administration and Resources Management
Acting Inspector General




                                             21
